..

No.

-701
IN THE

smmmz mms ©t she niosEfl ssaees
supreme Court, US'
FILED

DENNIS MARTIN BEYER, JR.,
Petitioner,

1 8 2020
Ogig-EOFTHECl fpk-

V.

THE STATE OF TEXAS,
Respondent.

Ora Petition for a Writ of Certiorari
To the Court of Criminal Appeals of Texas

PETITION FOR A WRIT OF CERTIORARI

DENNIS MARTIN BEYER, JR.
PETITIONER
TDCJ No. 2298991
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

,

QUESTION PRESENTED
This Court recently recognized that the term "trial by an im­
partial jury," contained within the Sixth Amendment of the United
States Constitution, requires jury unanimity. The Court further
recognized that this requirement applies to state and federal
criminal trials.
Petitioner was convicted of continuous sexual abuse by a jury
that was not required to agree unanimously on which two or more
specific acts of sexual abuse were committed by Petitioner or the
exact date when those acts were committed. To date, the Court of
Criminal Appeals of Texas has not written on the constitutional­
ity of the statute.
This Court has not directly spoken on the constitutionality
of continuous sexual abuse statutes that do not require a jury to
unanimously agree on the particular acts of wrongdoing committed
by a defendant.
This case, therefore, presents the following question:
Does the constitutional requirement of jury unanimity require
a jury to be unanimous as to specific acts of sexual abuse in
order to convict a defendant of continuous sexual abuse?

BEYER V. TEXAS

i

PARTIES TO THE PROCEEDINGS BELOW
This petition stems from a petition for discretionary review
proceeding in which Petitioner, Dennis Martin Beyer, Jr., was the
Appellant before the Court of Criminal Appeals of Texas. Mr. Bey­
er is a prisoner who was convicted of Continuous Sexual Abuse of
Young Child in the 6th Judicial District Court of Lamar County,
Texas, and is in custody of the State of Texas. The State of Tex­
as was the Appellee before the Court of Criminal Appeals of Tex­
as .

RULE 29.6 STATEMENT
Dennis Martin Beyer, Jr., Petitioner, is not a corporate en­
tity .

BEYER V. STATE

ii

PETITION FOR A WRIT OF CERTIORARI
Petitioner Dennis Martin Beyer, Jr., respectfully petitions
the Court for a writ of certiorari to review the judgment of the
Court of Criminal Appeals of Texas.

OPINIONS AND ORDERS BELOW
On September 30, 2020, the Court of Criminal Appeals of Tex­
as issued a judgment ref using Mr. Beyer's petition for discretion­
ary review. The September 30, 2020, refusal is unpublished and
attached as Appendix A.
On July 9, 2020, the Court of Appeals for the Sixth Appellate
District of Texas issued a judgment affirming the trial court's
judgments. The July 9, 2020, judgment is unpublished and attached
as Appendix B.
On November 22, 2019, a jury convicted Mr. Beyer and sentenced
him to 99 years imprisonment within the 6th Judicial District Gcu
Court of Lamar County, Texas. The November 22, 2019, judgment of
conviction is unpublished and attached as Appendix C.

JURISDICTION
The Court of Criminal Appeals of Texas had jurisdiction over
the petition for discretionary review under Texas Rules of Ap­
pellate Procedure, Rule..68. The judgment of the Court of Criminal
Appeals of Texas was entered on September 30, 2020. This Court
has jurisdiction pursuant to 28 U.S.CV § 1254(1).

BEYER V. TEXAS

1

CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitution pro­
vides that "[i]n all criminal prosecutions, the accused shall en­
joy the right to a speedy and:public trial, by an impartial jury
of the State and district wherein the crime shall have been com­
mitted, which district shall have been previously ascertained by
law."
The Fourteenth Amendment to the United States Constitution
provides that "No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws."

STATEMENT OF THE CASE
Petitioner was convicted of continuous sexual abuse by a nonunanimous jury. It was alleged that Petitioner committed two or
more acts of sexual abuse during a period that was 30 or more
days in duration. Each alleged act of sexual abuse is a violation
of the Texas Penal Code and a jury is required to agree unanimous­
ly in a trial of any of those acts individually. Under Texas'
continuous sexual abuse statute, a jury is authorized to dispense
with unanimity concerning the two or more acts of sexual abuse.
When this Court recently issued its opinion in Ramos v. Louisiana, 590 U.S.

, 2020 WL 1906545 (April 20, 2020) (recogniz-

ing that the term "trial by an impartial jury" requires jury una­
nimity), Petitioner's case was still pending on direct appeal.
On August 21, 2020, Petitioner submitted the present issue
BEYER V. TEXAS

2

to the Court of Criminal Appeals of Texas in his Appellant's Peti­
tion for Discretionary Review. The Court of Criminal Appeals has
held that a defendant may complain for the first time in a peti­
tion for discretionary review that a statute has been held to be
vois, and that such a complaint should be addressed in the inter­
ests of judicial economy. See Smith v. State, 463 S.W.3d 890, 895
(Tex.Crim.App. 2015). Although the statute in question has not
been held to be void, Ramos v. Louisiana, 590 U.S.

, 2020 WL

1906545 (April 20, 2020), has been held to be retroactive to cases
that are pending on direct review at the time of the Court's rul­
ing, which applies to this case. Under these circumstances, the
Court of Criminal Appeals considered BB^titioner1s petition and
ultimately refused relief. See Vines v. State, No. 09-14-00487-CR
(Tex.App.-Beaumont April 11, 2018) (not designated for publication)
(defendant may complain for the first time in a petition for dis­
cretionary review).

REASONS FOR GRANTING THE PETITION
By denying Petitioner's petition for discretionaryyreview, the
Court of Criminal Appeals of Texas has decided an important ques­
tion of federal law that has not been, but should be, settled by
this Court. The question presented is important, recurs frequent­
ly, and is perfectly presented on this record. This Court should
grant certiorari to stop Texas' and other states' curtailment of
defendant's constitutional right to a unanimous jury verdict.
I.

The Question is Important and Recurs Frequesntly.
The importance of this issue—whether the requirement of jury

unanimity applies to the particular acts of sexual abuse in a

BEYER V. TEXAS

3

jury trial for continuous sexual abuse—is self-evident. See
Ramos v. Louisiana, 590 U.S.

, 2020 WL 1906545 (April 20, 2020)

(recognizing that the term "trial by an impartial jury" requires
jury unanimity and applies to the states).
This Court touched on the issue of jury unanimity in continu­
ous sexual abuse cases in Riehardson v. United States, 526 U.S.
813, 816 (1999). In considering jury unanimity requirements of a
different statute, the Court, by analogy, discussed the jury una­
nimity issues that have arisen in the context of continuous sex­
ual abuse statutes adopted by various state legislatures. The
Court noted that continuous sexual abuse statutes typically allow
"jury disagreement about a 'specific' underlying criminal 'inci­
dent' insisting only upon proof of a continuous course of conduct

in violation of the law." 526 U.S. at 821. The Court ob­

served that in doing so, the States were likely responding to the
special difficulties inherent in proving the individual criminal
acts in such cases, and that the special subject matter of such
cases indicates that they represent an exception to the general
rule requiring a jury to unanimously.' agree on the particular acts
of wrongdoing committed by a defendant." Id. at .821-23. In light
of Ramos v. Louisiana, the Court's direct attention to the issue
is warranted.
Following a plea of not guilty, Petitioner was convicted of
one count of continuous sexual abuse and one count of sexual as­
sault. Petitioner was sentenced to 99 years' and 20 years' im­
prisonment, without the possibility of parole, respectively. By a
single issue, Petitioner maintains that Section 21.02 of the Texas
'

BEYER V. TEXAS

4

Penal Code, entitled "Continuous Sexual Abuse of Young Child or
Children" violates the newly recognized constitutional require­
ment of a unanimous jury verdict.
A person commits the offense of Continuous Sexual Abuse of
Young Child if during a period of 30 or more days in duration, a
person who is age 17 or older commits two or more acts of sexual
abuse against one or more victims who are under the age of 14.
TEX. PEN. CODE § 21.02(b). Subsection (d) unconstitutionally
states, "If a jury is the trier of fact, members of the jury are
not required to agree unanimously on which specific acts of sexual
abuse were committed by the defendant or the exact date when those
acts were committed." TEX. PEN. CODE § 21.02(d).
"Acts of sexual abuse" that qualify for prosecution include:
(1) aggravated kidnapping under Section 20.04(a)(4) if
the actor committed the offense with the intent to vio­
late or abuse the victim sexually; (2) indecency with a
child under Section 21.22(a)(1)...;5(3) sexual assault
under Section 22.011; (4) aggravated sexual assault un­
der Section 22.021; (5) burglary under Section 30.02...
if the actor entered a habitation with intent to commit
...[sexual assault]; and (6) sexual performance by a
child under Section 43.25.
TEX. PEN. CODE § 21.02(c).
While jury unanimity is not required about the two or more
specific acts committed for this particular offense, a lesser in­
cluded offense conviction for a crime requiring a singular act
can only be had if the jury agrees unanimously to a specific act.
See Soliz v. State, 353 S.W.3d 850, 854 (Tex.Crim.App. 2011).
In Petitioner's case, he was convicted by a jury that was
non-unanimous as to which two or more acts of sexual abuse were
allegedly committed. In the charge of the court on guilt-innocence,
BEYER V. STATE

5

the jury was authorized to return a guilty verdict without being
unanimous as to the individual acts of sexual abuse that make up
the series of acts for an essential element of the offense. Thus,
the jury could have found that up to 24 acts occurred (12 jurors
/

times 2 different acts perjguror).and still obtain a conviction.
The reasoning of the Supreme Court of Hawai'i in State v.
Rabago, 81 P.3d 1151 (Haw. 2003), which struck down the state's
similar statute, is persuasive and should be followed by this
Court because the Hawai'i court recognized under the state's case
law that the underlying acts are sepetate and distinct offenses.
Id. at 1168.
In sum, allowing a jury to convict a defendant without being
unanimous as to the specific acts of sexualiabuse in a prosecu­
tion for continuous sexual abuse fails to ensure that the consti­
tutional requirement for jury unanimity is fulfilled for all crim­
inal defendants. Petitioner's conviction for continuous sexual
abuse by a nonunanimous jury violates his right to a jury trial,
as guaranteed by Amendments VI and XIV to the United States Con­
stitution .
As a result, Petitioner respectfully suggests that some guid­
ance from the Supreme Court of the United States is warranted.

CONCLUSION AND PRAYER FOR RELIEF
Dennis Martin Beyer, Jr., respectfully prays that this Court
grant this petition for a writ of certiorari to resolve the ques­
tion Presented.
Dated: December 16, 2020

espectfully submitted,
(S.

DENNIS MARTIN BEYER, JR.
BEYER V. TEXAS

6

PETITIONER
TDCJ No. 2298991
Barry B. Telford Unit
3899 State Highway 98
New Boston, Texas 75570
Main Phone:(903)628-3171

BEYER V. STATE

7

